  Department of Health and Human Services

          OFFICE OF
     INSPECTOR GENERAL




ORGAN   PROCUREMENT    ORGANIZATIONS

         AND TISSUE RECOVERY





             .ab~ SERVICE$
                             “b.
            +Q’                  >1
           ,J’               ~        JUNE GIBBS BROWN
                                       nspector General
                             L
                             2              MAY 1994
                 “~d3a>
                                         0EI-01-91-O0250
                      OFFICE OF INSPECTOR                GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                          OFFICE OF AUDIT SERVICES

The OIG’S Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE OF INVESTIGATIONS

The OIGS Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION                   AND INSPECTIONS

The OIG’S Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs.

This report was prepared under the direction of Mark R. Yessian, Ph.D., Regional Inspector
General, and Martha B. Kvaal, Deputy Regional Inspector General, Boston Region, Office of
Evaluation and Inspections. Participating in this project were the following people:

Boston                                                                          Headquarters

Russell W. Hereford, Ph. D., Project Leader                                  Mary Beth Clarke
Joyce M. Greenleaf

          For additionalcopies of thisrepq please contactthe Boston regionalojjice
                 by telephone at (617) 565-1050, or by fm at (617) 565-3751.
  Department of Health and Human Services

          OFFICE OF
     INSPECTOR GENERAL




ORGAN   PROCUREMENT    ORGANIZATIONS

         AND TISSUE RECOVERY





                      @ SERVICE$
                ~d+                ~$~


           Z*                            JUNE    GIBBS BROWN
           .2s                            Inspector   General
             ‘6
              %.
               >+
                      ‘%d~~
                      2
                        $

                                                  MAY 1994
                                                OEI-01-91-00250
               EXECUTIVE                          SUMMARY


PURPOSE

To describe and assess the role of organ procurement       organizations in procuring tissue
for transplantation, and to identify vulnerabilities associated with that involvement.

BACKGROUND

Human tissue grafts, from perhaps 10,000 donors, benefit as many as a half-million
people annually. The great majority of these transplanted      tissues are bones, bone
products, or other parts of the musculo-skeletal   system, such as tendons, fascia, and
soft tissues. Consequently, we focus this inspection report on bone and musculo­
skeletal tissue, and we use the term “tissue” to refer to these.

In December 1993, the Food and Drug Administration          (FDA) regulated tissue
banking for the first time by requiring testing for infectious disease, donor screening,
and record keeping. New York, Florida, and California now regulate tissue banking            at
the State level.

Organ procurement      organizations (OPOS) are responsible for recovering organs from
donors. The National Organ Transplant Act requires that OPOS must also “have
arrangements    to cooperate with tissue banks for the retrieval, processing, preservation,
storage, and distribution of tissues as may be appropriate    to assure that all useable
tissues are obtained from potential donors.” While OPOS see organ procurement            as
their primary function, to the extent that statutory expectations for tissue recovery are
not met, opportunities    for donating and using tissues are lost.

This inspection report focuses on the supply of tissues and the role of the OPOS in
procuring tissue. The Public Health Semite (PHS) estimates that 125 bone banks in
the United States recover, process, and/or distribute bone for transplantation.

Federal law requires that OPOS have      arrangements    with tissue banks for tissue
procurement.   How well they perform      this role can have a significant bearing on
recovering a sufficient supply of high   quality tissue for transplantation.  The OPOS
already are involved in tissue banking    by virtue of their involvement in organ
procurement.   As much as 60 percent      of bone tissue used for transplantation    comes
from donors of solid organs.

We conducted a mail survey of all Medicare-certified   OPOS, with a response rate of
95 percent; interviewed staff from 15 OPOS by telephone; made site visits to four
OPOS, as well as tissue banks and hospitals in their service areas; interviewed Federal
officials from PHS and the Health Care Financing Administration      (HCFA) and staff
from relevant associations; conducted a focus group with directors of five tissue banks;
and reviewed pertinent Federal reports, legislation, and literature.


                                              i
FINDINGS

AU 62 OPOS responding to our survey participate in tiwue recovery to some degree.

  .       Thirty-four OPOS refer potential donors to tissue banks.
  �       Twenty-eight OPOS recover tissue themselves.


7he OPOS’ commitment to tiwue recoveiy varies widely. Performance data show that they have
not taken fid advantage of opportunitz”e.sto obtain tiwue from potential donom

As part of our review, we developed three performance        indicators to measure   the
OPOs’ involvement in tissue recovery:

Organ Donors Referred to Tissue Banks: For the 34 OPOS that refer potential            tissue
donors to tissue banks, we measured the percentage of organ donors who were
referred for tissue donation. This performance   indicator assesses the degree to which
an OPO actually refers its organ donors for tissue donation.

      �  Three of these OPOS reported that they referred all of their organ donors for
      tissue recove~. At the other extreme, 2 OPOS reported that they referred fewer
      tilan 20 percent of oqan donors for hksue donation.




Organ Donors Providing Tissues: For the 28 OPOS that recover tissue, we measured
the percentage of organ donors from whom they recovered both organs and tissues.
This performance    indicator assesses the emphasis that an OPO gives to organ donors
as a source of tissue.
I                                                                                               1
      * The percentage of otgan donors from whom these OPOS recovered both organs
      and tzkue ranged from a high of 43 percent to a 10w of 6 percent.




Ratio of Tissue Donors to Organ Donors:     For the 28 OPOS that recover tissue, we
measured the ratio of tissue donors to organ donors. This performance   indicator
assesses the attention that an OPO ~laces on nonor~an donors as a source of tissue.

      e Three of these   OPC)S   reported more than 150 tissue donors for eve~ 100 o?gcm
      donors. At the other extreme, 3 OPOS procured tissue from fewer than 20 tissue
      donom for evety 100 organ donors.




                                               ii
Tem”ons &t between o~an procurement and tiwue recovery. If these tem”ons intemijj, thty
could have adveme consequences for lhe supply of tkw.us and of organs.

   �	   Inherent differences between organ procurement and tissue recovexy (in
        urgency, prestige, and organization) can limit OPOS’ and tissue banks’
        willingness to work together.

   �	   Competition for donors among multiple tissue banks could threaten hospitals’
        eagerness to work with OPOS and tissue banks.

Some OPOS and tissue bankx have developed ejfective practices to improve ogan and tkrue
donation.

   �	   Some OPOS and tissue banks are working together to facilitate communication
        and cooperation. These efforts include a central telephone system to receive
        all donor referrals and m“tten agreements specifying referral arrangements
        among OPOS and tissue banks.

   �	   Some OPOS have established programs under which hospitals routinely refer all
        deaths to the OPO to increase the number of donor referrals.

RECOMMENDATIONS

Our recommendations        arise from the statutory requirement  that OPOS “have
arrangements    to cooperate with tissue banks for the retrieval of tissues to assure that
all useable tissues are obtained from potential donors.” Little national attention has
focused on this mandate.       The relationship between tissue banks and organ
procurement    organizations can have a significant impact on overall OPO performance.

The PHS should provtie some general oversight and guidance for OPO.Yregarding the+
arrangement wdh tissue banks and their tissue recovery activity.

We encourage    PHS to collect routine data about OPO involvement with tissue
recovery. The agency could also disseminate information about effective OPO tissue
banking practices to improve donation.    In addition, we urge PHS to keep a watchful
eye on tensions between OPOS and tissue banking to determine if these tensions are
jeopardizing the supply of tissues and organs.

7?aeHCFA shouki include an assessment of OPOS’ peflormance in tiwue recove~ as part of
the OPO recertification process.

The HCFA could utilize performance        indicators to assess how well OPOS are meeting
the requirement   that they have arrangements       to cooperate with tissue banks. We
recognize that recertification   focuses on an OPO’S performance      with respect to organ
procurement    and distribution.   We believe that some measure of accountability for
OPO performance      in tissue recovery is also warranted.


                                             ...
                                             111
                                                                          ..
COMMENTS

Within the Department    of Health and Human Services, we received comments on the

draft report from PHS, HCFA, and the Assistant Secretary for Planning and

Evaluation (ASPE).    We also received comments from the United Network for Organ

Sharing (UNOS), the American Association of Tissue Banks (AATB), and the

Association of Organ Procurement    Organizations (AOPO).  Overall, the comments

share three major points:


Adliitionai resoumes would be needed for PHS to provkie general overnightand guidance.

The PHS concurs with our recommendation        that the agency provide some general
oversight and guidance for OPOS regarding their arrangements      with tissue banks and
their tissue recovery activity. That agency, AATB, and UNOS indicate, however, that
additional resources would be needed to implement this recommendation,         and ASPE
calls it infeasible at this time. We are aware that funding for new initiatives is limited,
but we believe that PHS could begin providing general oversight and guidance without
incurring extensive new expenditures and without imposing a major reporting burden
on agencies or tissue banks. Existing reporting systems can be revised incrementally to
obtain these data with a minimum of expense and effort. We would be pleased to
work with PHS toward this end.

?he spec@c Peflormance indicatom we developed may not be adequate to evaluate OPOS’
peflorrnance in tiwue recovery.

The AATB finds our performance       indicators to be reliable indicators of the strength
of OPO commitment to tissue recovery from cadaveric donors, but HCFA, ASPE, and
AOPO question their adequacy.       We developed these indicators from readily available
data, but we are confident that other indicators also would show wide variation in
OPO performance.        We are not wedded to these or other particular performance
indicators.   Rather, we offer them as a starting point in deliberations  to develop
performance    indicators for OPOS and tissue banking. We encourage FICFA and PHS
to collaborate either to modify these indicators or to develop other indicators that will
begin to hold OPOS accountable for their activities with regard to tissue recovery.

Includihg an assessment of OPO performance in tiwue recovey as part of the Medicare
recertification procms k not fem”ble at present.

Both HCFA and ASPE identify regulatory barriers to including an assessment of OPO
performance     in tissue recovery as part of OPO Medicare recertification     processes.
The HCFA notes that such an effort is a long-term initiative, which must be preceded
by data collection and development        of appropriate and valid performance    indicators.
We believe that the long lead time that HCFA requires makes a compelling case for
initiating this activity soon. Collecting necessary data and developing more refined
performance     indicators are a precondition for this assessment.    Consequently,    we urge
HCFA to establish an appropriate        schedule to carry out such a proposal.


                                              iv
                          TABLE                     OF CONTENTS

                                                                                                                        PAGE

EXECUTIVE            SUMMARY


INTRODUCI’ION                . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...1



FINDINGS

    �All    OPOs participate in tissue recovery . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...4


    . The OPOS’ commitment                to tissue recovery varies widely                 . . . . . . . . . . . . . . . . . . 6


    . Tensions     exist between        organ procurement             and tissue recovery            . . . . . . . . . . . . 10


    .	 Some OPOS and tissue banks have developed effective practices to improve tissue

       and organ donation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12



RECOMMENDATIONS


    �   The PHS should provide some general oversight and guidance for OPOS regarding

        their arrangemen~s with tissue banks and their tissue recovery practices . . . . . 14


    �   The HCFA should include an assessment of OPOS’ performance in tissue recovery

        aspartof the OPO recertification process . . . . . . . . . . . . . . . . . . . . . . . . . ...15


COMMENTS             ON THE DRAIT                REPORT            . . . . . . . . . . . . . . . . . . . . . . . . . . ...16



APPENDICES


A       Overview of Tissue Recovery,              Processing,       and Distribution           . . . . . . . . . . . . . . A-1


B: Methodology             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..   B-1


CComments            onthe      Draft Report           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..   C-l


D:      Endnotes     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..   D-l

                          INTRODUCTION                                -


PURPOSE

To describe and assess the role of organ procurement      organizations in procuring tissue
for transplantation, and to identi@ vulnerabilities associated with that involvement.

BACKGROUND

Human tissue grafts, from perhaps 10,000 donors, benefit as many as a half-million
people annually. 1 The great majority of these transplanted     tissues are bones, bone
products, or other parts of the musculo-skeletal   system, such as tendons, fascia, and
soft tissues. Consequently, we are focusing this inspection on bone and musculo­
skeletal tissue, and we use the term “tissue” to refer to these. Tissues are used in
procedures such as knee and hip replacements,     spinal surgery, dental surgery, and
strengthening   ligaments and tendons.z

The Organ tiocurement    System

Organ procurement     organizations (OPOS) are responsible for recovering organs from
donors. The nation’s 65 OPOS encourage organ donation, identify potential organ
donors, obtain consent from next-of-kin, oversee the surgical excision of organs,
coordinate the various laboratory tests associated with transplantation,  arrange for
transportation  of organs, and operate a central register of transplant candidates in
their service area.3

The National Organ Transplant Act requires that OPOS must also “have arrangements
to cooperate with tissue banks for the retrieval, processing, preservation,   storage, and
distribution of tissues as may be appropriate  to assure that all useable tissues are
obtained from potential donors.”4    However, neither the Federal government nor the
federally funded Organ Procurement     and Transplantation    Network (OPTN) provides
guidance about these arrangements.     Undoubtedly,   OPOS see organ procurement       as
their prima~ function. At the same time, however, the National Organ Transplant
Act clearly envisions an important role for OPOS in facilitating the recovery of tissues.
To the extent that this expectation is not met, opportunities   for donating and using
tissues are lost.

An OPO also must have a working relationship with at least 75 percent of the
Medicare hospitals in its service area. At the same time, Medicare participating
hospitals must establish written protocols to identify potential organ donors. In most
cases, these protocols utilize the OPO to carry out this function, giving them access to
hospitals’ actual and potential organ donors. Consequently, this access to hospitals
places OPOs in a strong position to coordinate recovery of tissues from these or other
hospital-based   donors.



                                             1

lZe llisue Banking lhdusl~

The Public Health Service (PHS) estimates that 125 bone banks operate in the United
States, in addition to a number of small hospital facilities that retrieve and store bone
from living donors. The American Association of Tissue Banks (AATB), a national
professional organization, has accredited 50 tissue banks of all types that meet its
voluntary standards, including bone banks.s

Tissue banking has three stages: (1) Recovery or procurement,       the stage at which
donors are identified and screened, consent is obtained from next-of-kin, and the bone
is surgically recovered from a donor; (2) Processing and preservation,     in which the
bone is cleaned, treated, and preserved for future use; and (3) Distribution, in which
the presexved bone is distributed to hospitals, surgeons, and dentists for implantation.
(Appendix A provides a more detailed description of each of these stages.)

This report focuses on the procurement    stage, during which tissue is recovered.  This
stage is the point at which the supply is established and is likely to be the most direct
focus of OPO involvement.

Federal Interest in llssue Procurement

In December 1993, the Food and Drug Administration       (FDA) regulated tissue
banking for the first time. The FDA issued an interim rule to require testing for
certain infectious disease, donor screening, and record keeping in response to concerns
that some human tissues were being offered for transplantation   use without even
minimum donor testing and screening.b

This report focuses on the supply of tissues and the role of the OPOS in procuring
tissue. No other inquiry has been undertaken to assess their performance         of this role.
The National Organ Transplant Act requires that OPOS have arrangements             with tissue
banks for tissue procurement.     How well they perform this role can have a significant
bearing on recovering a sufficient supply of high quality tissue for transplantation.      It is
true that the shortage of tissue is not as critical a national problem as is the shortage
of organs. Yet the demand for transplantable       bone tissue is potentially unlimited, and
could result in a shortfall. Indeed, for certain “specialty tissues,” such as femurs and
patellar tendons, shortages may already be occurring.

Few sources of data are available to accurately measure the increase in demand for
bone tissue. According to one source, an investment firm, bone tissue transplants in
the United States increased from 155,000 in 1981 to 375,000 in 1990. More
importantly, in 1981, only 3 percent of all bone transplants--or 5,000 of the
155,000 procedures--used   tissue from donors; the other 97 percent used the
individual’s own bone. By 1991, donor tissue was employed in 53 percent of these
transplants.  The investment firm cites a number of factors, such as aging of the
general population and greater acceptance of donor tissue among surgeons, as
indicators that the demand for tissue will continue to grow.’


                                               2

The OPOS already are involved in tissue banking by virtue of their-involvement     in
organ procurement.   As much as 60 percent of bone tissue used for transplantation
comes from donors of solid organs--kidneys, livers, hearts, lungs, and pancreata.s    One
prominent researcher, Dr. Jeffrey Prottas of Brandeis University, has pointedly
summarized the issues central to Federal concerns about tissue procurement      and the
role of the OPOS as follows:

               Supplying bone cannot be a side-effect of the OPO referral
               system. . . . Insofar as the OPO system of hospital
               development and professional education is oriented solely to
               the needs of organ transplantation,  it must miss innumerable
               opportunities  to locate bone donors and to encourage bone
               donor referrals.   The need for bone cannot be met as an
               afterthought  of the need for organs. How to connect bone
               and organ banking is the basic question facing the tissue
               procurement    community and government policy-makers.9

This study examines the interaction between OPOS and tissue banks at the recovery stage,
where the supply of tissues for transplantation  is established. Despite differences between
organ and tissue transplantation,    there are similarities in the critical stage of recovery.
Procuring tissues and organs depends on access to and cooperation             of hospitals and
medical personnel to identify potential donors. Approval from family members must be
obtained.  Excising both organs and tissues requires the use of surgical techniques.

METHODOLOGY

In May 1993, we conducted a mail suxvey of each of the nation’s 66 Medicare-certified

OPOS; 63 OPOS (95 percent) responded, although we made the decision to exclude

1 OPO from our analysis. This left us with useable responses from 62 of the

remaining 65 OPOS. During site visits to four OPOS, we interviewed staff from the

OPO, local tissue banks. and local hospitals, and we reviewed documents related to

their tissue banking activities.


In addition to the mail survey and site visits, we conducted telephone interviews with

staff from 15 OPOS; Federal officials from the Food and Drug Administration      and the

Division on Transplantation     in PHS, and from the Health Care Financing

Administration   (HCFA); and staff from relevant organizations, including the

Association of Organ Procurement       Organizations, the AATB, and the United Network

for Organ Sharing (UNOS), which holds the Federal contract for the Organ

Procurement    and Transplantation    Network. We also conducted a focus group with

directors of five tissue banks during the August 1993 AATB scientific meeting.


Appendix   B contains   a detailed   description    of our methodology.


We conducted this study in accordance with the Quality Standards for Inspections

issued by the President’s Council on Integrity and Efficiency.



                                                   3

                                   FINDINGS                              -


ALL 62 OPOS RESPONDING      TO OUR SURVEY PARTICIPATE                       IN TISSUE
RECOVERY        TO SOME DEGREE.

The National Organ Transplant Act requires that OPOS have arrangements              to

participate in tissue banking. However, neither the Federal government nor the

OPTN provides direction as to how this involvement should take place. The 62 OPOS

that responded to our survey--95 percent of all OPOs--use two basic models for tissue

recovery: They either refer donors to tissue banks, or they perform the actual

recovery themselves.    Within each of these basic models, there is substantial variation.

Many OPOS are constantly evaluating their involvement, and it is important to

recognize that the arrangements     described here reflect only a point-in-time,    the spring

of 1993. In fact, the volatility of the arrangements   is reilected by the fact that at least

five OPOS had substantially changed their arrangements         over the past year.


i%i-ty-four OPOS refer potential donorx to tkwe bark

In 16 of these 34 OPO service areas, only 1 tissue bank operates.        In these areas, a
referral would typically be handled as follows: A staff member at an OPO or a tissue
bank receives a call about all potential donors, both organ and tissue, through a
central telephone number. The staff member asks one question:           “Is the donor on a
ventilator?”    If the answer is yes, the donor is a candidate for organ donation, and the
call is referred to the OPO; if the answer is no, there is no opportunity for organ
recovery, and the call is referred to a tissue bank.

In 18 other OPO service areas, however, OPO staff and tissue bankers described to us
situations in which multiple tissue banks operate and compete for available donors.
The following two examples describe how referrals are made in such areas. In one
city, a hospital calls the OPO first when it identifies a potential organ or tissue donor.
If the hospital has an arrangement with any of the four tissue banks in its area, the
OPO will inform that bank, which sends out a technician to handle the recovery. If
the donor hospital has no such arrangement,      the OPO calls one of the four banks on a
rotating basis. In another city, dissatisfaction with service from two available tissue
banks led the OPO to encourage a third bank to enter the service area and to receive
all referrals from the OPO.

Some of these tissue-referral    OPOS have little interest in being actively involved in
tissue banking beyond referring donors. These OPOS define their mission to be ogan
procurement    and distribution, not tissue recovery. Their primary motivation for
participating in tissue banking, even to this limited extent, is to protect their organ
relationships with hospitals, who may view them as the major procurement         agency in
the area.




                                              4

In other places, independent   tissue banks already were operating, SO:the Opo saw no

need for further involvement, beyond cooperating with the existing tissue banks.

These OPOS view coordinating with tissue banks as important for their own

relationships with hospitals, because it gives them an opportunity to respond to

donation referrals.  They reason that even if the donor is inappropriate  for organ

donation, when a future opportunity for organ donation arises the hospital will be used

to calling the OPO for donation.     The OPOS view this as an opportunity to increase

donation awareness and expand their hospital constituency beyond transplant

surgeons.


Sixteen of these 34 OPOS reported that they charge tissue banks a fee for referring

bone donors to them. These fees span a wide range. Five of these 16 OPOS charge a

referral fee of $100 or less, 5 charge between $100 and $500, 3 charge between $500

and $750, and 3 charge more than $1,000. The differing fees do not always cover

comparable costs. Some OPOS use the fees only to offset direct costs incurred in

referring tissue donors. For example, one OPO reported that it charges a fee of $35

per hour to cover the wages of an OPO procurement       coordinator who assists the

tissue bank. At the other extreme, the director of an OPO that charges $1,200

indicated that its fee also covers operating room costs which are billed to the OPO,

rather than directly to the tissue bank.


Eighteen of the referral OPOS, however, do not charge fees for tissue referral. Staff

at these OPOS told us that they simply consider referral of any donor to be part of the

donation process, and they do not expect to be compensated.



llventy-eight OPOS recover tiwue themselves.

The 28 tissue-recovery OPOS use three basic approaches.      At the most comprehensive
level, nine of these OPOS operate full-service tissue banks, either as part of the OPO
or as a sister corporation within the overall OPO corporate structure.     These
comprehensive    organ and tissue banks recover, process, and distribute tissue within
their own semice area. In addition, they may contract with OPOS in other areas to
process their tissue and to distribute it back to that OPO’S service area.

Twelve of the 28 OPOS recover and distribute tissue. After recovery, the OPO ships
the tissue to a tissue processor.  That processor might be one of the comprehensive
OPO-based tissue banks described in the previous paragraph, or it might be an
independent   tissue bank or tissue processor.   After being processed, the tissue is
returned to the OPO, which distributes it to local practitioners.

Finally, seven OPOS just recover tissue. These OPOS have a contractual relationship
with a tissue bank, which then processes and distributes the tissue. Many observers
may not consider these OPOS to be extensively involved in tissue banking. They are,
however, clearly involved in recovering tissue, including obtaining consent, screening
donors, and performing the surgical excision.


                                           5

We identified four major reasons for OPO involvement in tissue recovery and, for
some OPOS, processing and distribution.     First, some OPOS see an opportunity to fill
a void, by being able to provide a service (and a product) that local surgeons can use.
In fact, in many of the arrangements   in which an OPO only recovers tissue, the
processed tissue is distributed back to that OPO’S local area.

Second, by coordinating organ and tissue recovery more effectively, OPOS expect to
provide better service to hospitals, making it easier for them; we heard the term “one-
stop shopping” to describe this goal. For other OPOS, tissue recovery is just a logical
extension of their organ procurement   activities.

A third reason for OPO involvement     in tissue recovery is to keep some control over
donation in general, and to guard their access to hospitals.    In areas where they feel
that other tissue banks may be performing poorly, the OPOS cited a need to protect
their reputation in order to protect their source of donors for organs.

Finally, those OPOS involved in recovery have a substantial financial interest.     We did
not undertake a comprehensive      financial analysis of tissue banking and OPOS;
however, the following examples illustrate the monetary side of such a business. The
director of one OPO told us that this year his OPO expects to realize gross revenues
of about $1 million from recovering and distributing tissues; this would yield a net
operating surplus, or profit, of between $50,000 and $100,000. At another OPO, the
staff informed us that tissue banks typically pay OPOS between $5,000 and $6,000 per
donor for performing recovery services; this amount is sufficient to cover their direct
recovery costs--staff, operating room time, supplies, transportation--as   well as a portion
of their allocated overhead costs.



THE OPOS’ COMMITME NT TO TISSUE RECOVERY VARIES WIDELY.
PERFORMANCE DATA SHOW THAT THEY HAVE NOT TAKEN FULL
ADVANTAGE OF OPPORTUNITIES TO OBTAIN TISSUE FROM POTENTIAL
DONORS.

The OPOS show a wide range of success in referring donors or recovering their tissue.

The range may not be surprising, given the lack of guidelines or standards for

performance   in this area. Nevertheless, it raises questions about why some OPOS are

recovering more tissue or referring more donors than others. Are those that recover

more tissue performing more effectively or efficiently? Are those at the lower

performance   levels simply not paying attention to tissue donation as they carry out

their organ procurement    activities? Are they missing opportunities to identify donors

and recover tissues?


As part of our review, we developed three performance indicators to measure OPOS’

involvement in tissue recovery. One of these performance     indicators applies to OPOS

that refer potential tissue donors to tissue banks, and two of these performance

indicators are relevant for OPOS that recover tissue themselves.    For each of these, we



                                             6

first describe the performance indicators; we then examine the range of OPO
performance,    utilizing 1992 data that the OPOS reported to us. Importantly,
these data are for one year only; an OPO’S performance     could change substantially
from year to year.

   �	   Organ Donors Referred to Tissue Banks: For the 34 OPOS that refer potential
        tissue donors to tissue banks, we measured the percentage of organ donors who
        were referred for tissue donation.    Theoretically, at least, every organ donor is
        a potential tissue donor; this performance indicator assesses the degree to which
        an OPO actually refers its organ donors for tissue donation.

i%ee of there OPOS reprted that tky referred all of their ogan donom for tksue recovery. At
the other extreme, 2 OPOS reported that they refereed freer than 20 percent of organ dorunx for
tiwue donah”on.



                                              TABLE 1
                               Percentage of Organ Donors Referred
                                       for Tissue Donation in
                               OPOS that Refer Tissue Donors, 1992

              Percentage of Organ Donors                                  Number of OPOs
              Referred     for Tissue Donation

         II            fewer than 20 %                         I                       2

         II               21%-40%                              I                       4

         II               41%-60%                              I                      10

         II               61%-80%                              I                       9
                         81%-100%                                                      4
          n = 29 (of 34) OPOS that refer tissue donora and that supplied sufficient data for analysis.
          source OIG survey of OPOS, May 1993                                        rneart= 58.4 Yo


Clearly, for the 4 OPOS in the highest catego~, referral for tissue donation is routine;

3 of these OPOS actually referred all of their organ donors, and the fourth referred

90 percent of its donors. These data also show that some OPOS may not be giving full

consideration  to tissue donation.    Certainly, those OPOS that fall at the low end on

this performance    indicator--for example, the 6 OPOS that refer fewer than 40 percent

of their organ donors for tissue donation--appear      to give little attention to tissue

referral.


This performance   indicator raises questions about whether and how the number of

tissue donors could be increased.   Do the OPO staff have incentives to refer donors to

tissue banks? Are the OPO staff adequately trained to discuss tissue donation and



                                                           7
recovery with donor families’? Would better marketing and outreach by tissue banks
alleviate this shortfall? Would more cooperation between tissue banks and OPOS
generate more referrals?

   �	   Organ Donors Providing Tissues: For the 28 OPOS that recover tissue, we
        measured the percentage of organ donors from whom they recovered                                    both
        organs and tissues. This performance indicator assesses the emphasis                                that an
        OPO gives to organ donors as a source of tissue.

?ke pexentage of organ donotx from whom these OPOS recovered both organs and tksue
ranged from a high of 43 percent to a low of 6 percent.


                                           TABLE 2
                            Percentage of Organ and Tissue Donors
                              in OPOS that Recover Tissues, 1992

                 Percentage of Organ Donors                              Number of OPOS
             from whom OPO also Recovered
                        Tissues

                          fewer than 10 %                                             2

            II               11%-20%                             I                    9                II
            II               21%-30V0                            I
                                                                 ,
                                                                                      7                II
            II               31%-40%                                                 5                 I
                             41%-5070                                                2
             n = 25 (of 28) OPOS that recover tissue and that supplied sufficient data for analysis.
             source OIG suwey of OPOS, May 1993                                   mean = 22.8 %


Even in those OPOS at the highest level on this indicator, fewer than one-half of all

organ donors also donate tissue. An organ donor’s family may not consent to tissue

donation.   The nature of the consent process, the length of the forms, the nature of

the surgical recovery of tissues, and the publicity given to organ donation may mean

that some families are less likely to give consent for tissues. At one OPO, for

example, the staff informed us that only about 50 percent of organ donor families also

consent to bone donation.


Further analysis of these data, however, reveal that those OPOS that are most involved

with tissue banking tend to fall towards the higher end on this performance     indicator.

Four of the 6 “comprehensive    OPOs’’--those that recover, process, and distribute

tissue--procured  tissue from more than 25 percent of their organ donors. This number

compares with 4 of the 11 OPOS that recover and distribute tissue, and 2 of 8 OPOS

that only recover tissue. The implication, not surprisingly, is that those OPOS that are




                                                          8

more involved with tissue banking are likely to put greater effort into tissue recovery.
This emphasis may result from factors such as a greater financial interest, or it may
result from an organizational culture that encourages and supports tissue procurement.


  �	   Ratio of Tissue Donors to Organ Donors:      For the 28 01’OS that recover
       tissue, we measured the ratio of tissue donors to organ donors. This indicator
       assesses the attention that an OPO gives to nonorgan donors as a source of
       tissue.

Three of these OPOS reported more than 150 tirsue donon for evey 100 organ donors. At the
other extreme, 3 OPOS procured tksue from fewer ~han 20 tirsue dono~ for every 100 organ
donom



                                             TABLE 3
                              Ratio of Bone Donors to Organ Donors in
                                   OPOS that Recover Tissues, 1992
                                                 1
                Number of Bone Donors                  per               Number       of OPOS
                    100 Organ Donors

                           fewer than 50                     I                      12                   II
                                51-100                                               5
                               101-150                                               5

           II             more than 150                      I                       3
                n = 25 (of 28) OPOS that recover tissue and that supplied sufficient data foranalysiS.
                source OIG survey of OPOS, May 1993                                      mean = 77.0



This measure addresses OPOS’ performance in looking for tissue donors outside of
their traditional pool of organ donors. The data presented in table 3 are based on
donors who provided tissues only. We also analyzed data on tissue donors from whom
the OPO also recovered organs and found a similar distribution.

These data are consistent with the data presented in table 2. Those OPOS that
provide the most comprehensive    tissue banking services--recovery,   processing, and
distribution--tend to have higher rates of tissue procurement    than do other OPOS;
OPOS that both recover and distribute tissue have higher rates than those that recover
tissue only. Three of the 6 comprehensive     tissue banks procure tissue from more
tissue than organ donors, as do 4 of the 12 OPOS that both recover and distribute
tissue. Just one OPO that only recovers tissue is above that level.




                                                             9

TENSIONS EXIST BETWEEN ORGAN PROCUREMENT AND TISSUE
RECOVERY.  IF THESE TENSIONS INTENSIFY, THEY COULD HAVE
ADVERSE CONSEQUENCES FOR THE SUPPLY OF TISSUES AND OF
ORGANS.

Inherent differences between o~an procurement and tiwue recovery can limit OPOS’ and tksue
banks’ willingruxsto work together.

Although organ procurement          and tissue recovery are intertwined in many aspects, they
remain quite different. To some degree, these differences reflect higher prestige
generally accorded to organ procurement          and transplantation   than to tissue recove~
and transplantation.     Organ transplantation     is considered to be a life saving procedure,
while tissue transplantation     is viewed as life enhancing.     Renowned surgeons perform
organ transplantation     in a limited number of federally approved transplant centers,
while tissue transplantation     is part of routine surgery performed at most community
hospitals.

The Federal government has designated organ procurement      organizations, which
operate with virtual monopoly powers in a defined territory, and has set up a special
program within Medicare to pay for organ recovery and transplantation.      On the other
hand, no Federal regulation governs how tissue banking is organized, multiple tissue
banks compete with each other in many areas of the country, and payment is no
different than for any other hospital supply.

Different risk-benefit calculations also apply for transplanting     organs and tissues.
Because vital organs are life-saving and scarce, potential recipients are likely to take
greater risks with the absolute safety of an organ than would be the case for tissue
transplantation.     The person who is facing death unless he receives a kidney or liver
may be more willing to risk using a donated organ than someone who needs a
transplanted     tendon to gain full function of the knee joint. Both organ and tissue
donors are subject to extensive screening and testing to minimize the risk of
transmitting infectious disease. 10 However, the short time frame in which organs must
be recovered, transported,     and transplanted    means that lengthy testing--such as blood
and tissue cultures--is not possible if the organs are to remain viable. Tissue banks, on
the other hand, can take advantage of the nonurgent nature of tissue transplantation
to conduct a comprehensive       testing of a tissue donor.

As part of their testing and screening, tissue banks also may conduct extensive
interviewing of the donor’s family in an effort to rule out behaviors associated with
HIV or other infectious diseases. In fact, this more extensive interviewing of family
members and acquaintances      was cited to us by several OPO staff as being insensitive
to a grieving family, and not meeting their needs for support; tissue bankers, however,
cite an obligation to do everything possible to protect the recipient of the tissue from
transmission of infectious disease.




                                              10

In some instances, according to OPO staff, tissue banks fail to understand hospitals’
concerns and needs. As a result, the OPO simply may not refer a donor out of fear
that the tissue bank may harm its relationships with hospitals.    An OPO director told
us about a recent event that illustrates this concern. Nurses at a local hospital that
previously had referred organ donors called the tissue bank about a potential donor,
but no one returned their call. An hour later they called the OPO to complain.         The
OPO director eventually tracked down the tissue bank recovery team in the operating
room at another hospital. But the team never called the hospital. The director noted
that, “The donor was lost, plus the hospital is less likely to want to hassle with this in
the future. The hospital had given us six organ donors per year, but we haven’t had
one from it in 6 months.”

Despite the concerns cited here, in many areas the relationship between tissue banks
and OPOS appears to be working well, In these areas, OPO and tissue bank staff
report that they focus efforts on encouraging donation in general terms--not in
separating organs and tissues in their work with hospitals.

Competition for donorx among multiple tiwue banks coukl threaten hospi[ak’ eagerness to work
with OPOS and tirsue banlm

Unlike OPOS, tissue banks have no defined service area in which they operate.

According to our survey, one-haIf of the OPOS reported that more than one tissue

bank operates in their service area. Where multiple tissue banks operate, the

competition for donors can become intense. The fear, from the OPO perspective, is

that competition among multiple tissue banks can damage the OPO’S relationships

with hospitals, which many OPO staff believe are already tenuous.


Tissue banks may compete for referral contracts with hospitals that will guarantee they

will be contacted when potential donors are identified.       For example, the director of

one OPO told us that in the past year three new tissue banks have solicited hospitals’

support for their services; but she raised concerns that these contacts are very time-

consuming and create confusion for the hospitals.       In another part of the country,

nurses at one hospital told us that a new tissue bank approached the hospital

administration   about using its services, claiming that if the hospital failed to comply, it

would bring suit on the basis of restraint of trade.


The competition for donors also may focus on providers of care. An example relayed

to us by staff nurses on the intensive care unit in one hospital illustrates how this

competition takes place. An orthopedic surgeon on the hospital staff had used tissues

from one of the local tissue banks. The tissue bank convinced the surgeon that the

nurses must now refer donors to it, presumably to pay back the tissue bank for

supplying the original tissue.


Seeking hospital cooperation in organ donation entails constant education by the

OPO. Even large medical centers yield few organ donors. In order to obtain organs

from as many potential donors as possible, OPOS have a tremendous vested interest in



                                              11

keeping their referral relationship with hospitals working well. Tissue banks, on the

other hand, report that obtaining donors is the bottleneck in ensuring an adequate

supply of tissue, just as it is for organs. Tissue bankers cite the privileged position that

OPOS have with respect to access to hospitals. This OPO access means that tissue

banks are, at least to some degree, dependent upon the OPOS for tissue donor

referrals.


For some--but by no means all--OPO directors, the solution to problems caused by

multiple tissue banks lies in designating a single tissue bank for each service area,

along the lines of the OPO service area designation.       For other OPO directors, as well

as tissue bankers, such a solution would do little to solve the donor supply problem.

Instead, they support tissue bank competition, so long as it is based on meeting the

service needs of hospitals.   One OPO director typified the comments of others when

he told us that, “selection of a tissue bank still boils down to who serves the hospital

best.”



SOME OPOS AND TISSUE BANKS HAVE DEVELOPED EFFECTIVE
PRACIKES  TO IMPROVE ORGAN AND TISSUE DONATION.

During our mail survey, interviews, and site visits we sought information from OPOS
and tissue banks about what they considered to be effective practices to improve
donation and coordination between organ and tissue donation.        Based on the
descriptions and results reported by these officials, the following practices appear to
be worth further consideration by other OPOS and tissue banks.

Some OPOS and &me bank are working together to facilitate communication and
cooperation. ?hese ejiorts include a central telephone system to receive all donor re$erralrand
w“tten agreemenfi specifying referral arrangements among OPOS and tksue bank

Identification of potential organ and tissue donors is a relatively rare event in most
hospitals.11 As a result, when a potential organ or tissue donor is identified, hospital
staff may not be clear about which organization to call, how to proceed, and what
organs or tissues a donor might provide. Because of this confusion, potential donors
may be lost to the system.    The OPO and tissue banks in some areas are working
together to address this problem and to improve service to hospitals.

In several areas, OPOS and tissue banks use a central telephone number to coordinate
donor referral for both organs and tissue. One OPO reported to us that “we have had
only one phone number for referrals in our area for 10 years. This is essential to
achieve best support from donor hospitals.” The goal of this arrangement      is to save
hospitals from having to make calls to several agencies for a multiple tissue donor.
Instead, the OPO can then make the referrals to the appropriate      agencies. Another
OPO, operating in an area with two tissue banks, reports that both tissue banks have
agreed to utilize the OPO’S donor hotline for tissue referrals within the OPO service
area. This single number is included in each tissue bank’s hospital development


                                            12

materials, as well as the OPO’S materials.   The OPO coordinators screen all calls and
exclude unacceptable    tissue donors on the basis of screening criteria that were jointly
established and agreed to by the tissue banks and OPO.

Some OPOS and tissue banks also have developed written referral arrangements          to
clarify their respective roles. An example of such an arrangement     is the Transplant
Council of the Rockies, which consists of Colorado Organ Recovery System (OPO),
Mile High Transplant Bank (tissue bank), the Colorado Eye Bank, and the Rocky
Mountain Lions Eye Bank. The Council agreement specifies the manner in which the
OPO, tissue bank, and eye banks share referrals.     Council members have agreed to
guidelines and standards intended to maintain high quality service to the area
hospitals.   For example, each organization must be certified or accredited by the
appropriate    national body, such as HCFA for the OPO, the AATB for the tissue bank,
and the Eye Bank Association of America for the eye banks. The organizations have
agreed to participate in a neutral arbitration system to resolve disputes. They collect
regional referral and recovery data on a quarterly basis to provide information on
outcome of referrals, recovery by donor. and disposition of recovered organs and
tissues. The organizations also share expenses for professional education and hospital
development,

Some OPOS have established programs under which hospitals routinely refer all deaths to the
OPO to increase the number of donor referrak

Hospital staff may not refer a potential donor because they assume--perhaps
incorrectly--that a particular patient was inappropriate for donation. Rather than rely
solely on the hospital staffs judgment, OPO or tissue bank staff believe themselves to
be more knowledgeable       about donor appropriateness. They prefer to make judgments
about donor suitability on the basis of the OPO’S or tissue bank’s own screening
criteria.

Six OPOS informed us about their programs under which hospitals routinely refer all
deaths to the OPO for consideration      of organ and tissue donation.    The decision on
whether the deceased individual is appropriate     for donation then rests with the OPO.
The OPOS reported that they implement this practice on a hospital-by-hospital           basis,
beginning with larger hospitals that have higher numbers of donors. One OPO which
has implemented    this approach notes that it is difficult to get this system started,
because it requires changes in hospital routines.    But the OPO estimates that routine
referral has led to a three-fold increase in calls to their office, and has been of
particular benefit to tissue referrals (although less so to organ referrals).  Routine
referral may, however, add some cost. One OPO reported that it had to hire a nurse
to be on duty all night in order to receive these calls and make judgments about
whether the potential donor is acceptable.




                                              13

                    RECOMMENDATIONS


Our recommendations       arise from the statutory requirement    that OPOS “have
arrangements    to cooperate with tissue banks for the retrieval of tissue.” While activity
is taking place at the local OPO level, little national attention has focused on this
mandate.     Over the last decade, there has been tremendous growth in the use of bone
tissue in surgical procedures, and the procurement     of that tissue is closely intertwined
with the procurement     of organs. Because it can have a significant impact on overall
OPO performance,      the relationship between tissue banks and organ procurement
organizations can no longer be relegated to secondary status.

Both PHS and HCFA have important roles to play in this respect, and we direct
recommendations      to each of these agencies. We believe that the Department   needs
to provide some national guidance t; establish accountability for the ~equirement
regarding OPOS and tissue banks. We have developed our recommendations          to
further that objective.


l%e PHS should provide some general overnightand guidance for OPOS regarding their
airangementi with tissue banks and their tissue recovery activity.

The Division on Transplantation      within PHS provides general oversight of the nation’s
organ procurement      system and administers the contract for the Organ Procurement
and Transplantation     Network. Our recommendation      means that PHS would extend its
oversight of OPOS to include some guidance on their involvement with tissue banking,
in light of the requirement   in the National Organ Transplant Act. This oversight and
guidance could take several forms.

First, we encourage PHS to collect routine data about OPO involvement with tissue
recovery. Data to be collected might include information on what arrangements      an
OPO has in place for tissue recovery or referral of potential donors. These data might
also include statistics on performance  indicators such as the number of potential tissue
donors referred, number of donors from whom tissue was recovered, and number of
donors providing both organs and tissue. The PHS could use UNOS, the OPTN
contractor, to gather this information through the current OPO reporting structure.

Second, PHS could play a useful role by disseminating information about effective
practices that OPOS have undertaken to work with tissue banks. We have described
two such practices in this report--steps to facilitate communication  and routine referral
of all deaths. We expect that other practices also merit consideration.   An evaluation
of these efforts and distribution of the findings to OPOS and tissue banks could
complement ongoing PHS efforts to encourage organ donation.

Third, we urge PHS to keep a watchful eye on the types of tensions between OPOS
and tissue banking that we describe in this report. It is important that PHS monitor


                                             14

these tensions and determine if they are intensifying to a degree that jeopardizes the
supply not only of tissues, but of organs as well. We also encourage PHS to consider
ways in which it can help OPOS and tissue banks overcome these tensions.


The HCFA shouki include an assessment of OPOS’ pe~ormance in lksue recovery as part
of the OPO recerhjication process.

This recommendation     would require that an OPO must meet certain performance
expectations with respect to its involvement in tissue banking in order to maintain         its
certification for Medicare and Medicaid.

In light of the statutory requirement, we believe that some measure of accountability
for OPO performance       in tissue recovery is warranted. At present, HCFA responds to
this requirement   by asking OPOS to “document your affiliation with tissue banks for
the retrieval, processing, preservation, storage and distribution of tissues to assure that
all useable tissues from potential donors are obtained.”*2

Based on our findings in this report that wide variation exists in OPO performance    in
tissue recovery, we have reason to question whether all useable tissues are indeed
being obtained from potential donors. We believe that HCFA could improve OPOS’
accountability and performance in tissue recovery by examining data that substantiate
these organizations’ participation in this activity.

We recognize       that recertification focuses primarily on an OPO’S performance       with
respect to    organ procurement        and distribution. However, the law explicitly requires
that OPOS      also participate in tissue recovery. Establishing accountability for this
requirement      is not inconsistent with reviewing organ procurement     efforts, and it would
help meet     expectations that all useable tissues are obtained from donors.

The HCFA could utilize performance        indicators to assess how well OPOS are meeting
the requirement    that they have arrangements     to cooperate with tissue banks. In this
report, we identify three such performance indicators that offer a starting point for this
examination.    One of these performance     indicators can be applied to OPOS that refer
potential tissue donors to tissue banks, and two can be applied to OPOS that recover
tissue themselves.    These three indicators revealed wide variation in the performance
of OPOS with respect to their tissue recovery and referral activities. The HCFA could
use indicators such as these to measure that performance,        or it could develop its own
tools to assess an OPO’s performance      in recovering tissues.




                                               15

 COMMENTS                        ON THE               DRAFT             REPORT


Within the Department      of Health and Human Services, we received comments on this
report from the Public Health Semite, the Health Care Financing Administration,   and
the Assistant Secretary for Planning and Evaluation. We also received comments from
the United Network for Organ Sharing, the American Association of Tissue Banks,
and the Association of Organ Procurement     Organizations. Appendix C contains the
full text of each set of comments.

We are encouraged that the respondents agree that we raise legitimate questions
about an important issue. It is clear that organ procurement     organizations are
intricately involved in tissue recovery by the very nature of the anatomical donation
system. We also are compelled to note that the National Organ Transplant Act
includes a role for OPOS in tissue recovery. As we indicate in this report, obtaining
and allocating vascular organs is the primary task facing OPOS; while we also view
tissue procurement   as important, we do not imply that tissue recovery should take
precedence over OPOS’ efforts to improve their organ procurement         practices.

Our interest is in ensuring that OPOS and tissue banks do not operate in a fashion
that could be detrimental to the recovery and allocation of a scarce and valuable
resource that relies on a voluntary system of donation.     We are concerned about
competition that could have a deleterious impact on organ procurement,        about
duplication of effort, and about organizations operating at cross purposes in their
procurement    activities. As a result, we believe that the Department   has an important
role to play in encouraging the coordination of organ procurement      and tissue recovery,
as was envisioned by Congress in legislation establishing the national organ transplant
system.

Overall, the comments share three major points.       Below, we identify these points and
offer our response to them.

Additional resources would be needed for PHS to provide general oversight and
guidance.

The PHS concurs with our recommendation       that the agency provide some general
oversight and guidance for OPOS regarding their arrangements     with tissue banks and
their tissue recovery activity. That agency, AATB, and UNOS indicate, however, that
additional resources would be needed to implement this recommendation,       and ASPE
calls it infeasible at this time.

We are keenly aware that      funding for new initiatives is limited. In this instance,
however, we believe PHS       could begin providing general oversight and guidance
without incurring extensive    new expenditures.   Our intent in making this
recommendation    is not to   create a new reporting structure; nor do we wish to impose
a major reporting or data     processing burden on agencies within the Department,      on


                                              16
the OPTN, nor on the OPO or tissue banking community.        We would be pleased    to
work with PHS toward this end.

We believe that existing reporting systems can be revised incrementally to obtain these
data with a minimum of expense and effort. As we note in our recommendation,        we
envision the collection of routine data. We anticipate that few data elements beyond
those currently submitted for monitoring and guiding organ procurement     would be
needed. These elements could be incorporated      easily with data that OPOS and tissue
banks gather in their current business practices, and that OPOS report to HCFA, PHS,
and UNOS. Our experience in conducting this study reinforces the availability of this
information, as we found that OPOS had little problem in providing the data we used
in this inspection.


The specific performance indicators we developed may not be adequate to evaluate
OPOs’ performance in tissue recoveV.

Although AATB finds our performance indicators to be reliable indicators of the
strength of OPO commitment to tissue recovery from cadaveric donors, HCFA, ASPE,
and AOPO question the adequacy of our indicators.      We believe that the indicators
we present are quite sufficient to draw attention to questions that the Department    and
the organ and tissue transplant community should begin to address.     We developed
these indicators based on readily available data, and we are confident that other
indicators would also show wide variation in OPO performance.

At the same time, however, we are not wedded to these or any other particular
performance    indicators.    Rather, we offer them as a starting point in deliberations
around performance       indicators for OPOS and tissue banking. We encourage HCFA
and PHS to collaborate either to modi~ these indicators or to develop other indicators
that will meet our intended purpose: to begin to hold OPOS accountable for their
activities with regard to tissue recovery. We also believe that PHS and HCFA would
find it useful to include representatives   from professional groups, such as AOPO,
AATB, and UNOS in developing any indicators, because of the expertise of these
organizations and their constituencies.


Including an assessment of OPO performance in tissue recovery as part of the
Medicare recertification process is not feasl%le at present.

Both HCFA and ASPE identi@ regulatory barriers to including an assessment of OPO
performance with regard to tissue recovery as part of OPO Medicare recertification
processes.  We recognize that regulations needed to implement this recommendation
have not yet been proposed, and that the Secretary has not expanded the list of
organs to include tissues.




                                           17

The HCFA notes that any such effort is a long term initiative, which$must be preceded

by data collection and development of appropriate      and valid performance    indicators.

We believe that the long lead time that HCFA requires for such an effort makes its

own compelling case for initiating this activity sooner rather than later. Collecting

necessary data and developing more refined performance        indicators are preconditions

for this assessment.  Consequently, we urge HCFA to establish an appropriate

schedule to carry out such a proposal.





Technical Comments

  �    FDA Interim    Rule on Human     Tissue Intended   for Transplantation

Subsequent to the preparation     of our draft report, the Food and Drug Administration
issued an interim rule to require testing for infectious disease, donor screening, and
recordkeeping    to help prevent the transmission of AIDS and hepatitis through human
tissue used in transplantation.   We have modified the text of this report to provide
note of this interim rule, published at 58 Fed. Reg. 65,514, December 14, 1993.

  �    Number   of OPOS

The HCFA comments note that the correct number of OPOS is 66, rather than 65 as
we report in the text. The larger number includes the OPO of Puerto Rico which we
excluded from our analysis due to its low level of procurement  activity, as we note in
our methodological   appendix. We also reference this exclusion in endnote 3 to the
text.




                                             18

                             APPENDIX                   A            -

                AN OVERVIEW OF TISSUE BANKING.
            RECOVERY, PROCESSING, AND DISTRIBUTION

RECOVERY

Recovery is the first stage in the tissue banking process. It involves four steps:
identification and referral of the potential donor, consent to donation from the donor
family, donor screening, and surgical recovery of the tissues from the donor.

Identification and Referral of Donors

Unlike organ donation, which requires that the donor be ventilator dependent,

virtually any death can be considered for tissue donation.  Most tissue donors are

referred by hospitals, although medical examiners also are an important source.

Upon identifying a potential donor, hospitals may noti~ a tissue bank directly about

the possibility of donation, or it may call the OPO, which passes on the referral to the

appropriate    tissue bank.


Consent

Hospitals are required, as a condition of participation  in Medicare, to ensure that
families of potential donors are made aware of the option to donate organs and
tissues. In addition to offering the option of donation, the hospital, OPO, or tissue
bank must obtain consent from the donor’s next-of-kin.

According to OPO staff with whom we spoke, the preferred approach to obtaining
consent is a face-to-face conversation with the donor’s family. In the case of tissue
donation, however, consent is often requested over the telephone.

The form in which staff obtain consent can vary widely. For example, in some cases,
the OPO will obtain consent using a blanket statement that authorizes donation of all
organs and tissues. In other cases, the form will spell out specifically which organs and
tissues the family wishes to donate.

Screening

If the family consents to donation, the tissue bank or OPO will screen the donor based
on its own criteria for acceptance.  The Centers for Disease Control (CDC) has
published draft guidelines for donor screening, but the guidelines are voluntary.
According to literature we reviewed13 and the staff from tissue banks and OPOS with
whom we- spoke, donor screening is considered to be a very important step in ensuring
the safety and quality of tissue.



                                          A-1

Screening generally includes assessing the potential donor’s social aild medical history.
To identify any risk factors associated with transmitting diseases, the tissue bank
assesses social history through interviews with family members, spouses, and/or sexual
partners.  The medical history includes blood tests, cultures, cause of death, and
previous illnesses. Some, but not all, tissue banks require autopsies in their screening.

Generally, a tissue bank reserves its final determination   about the acceptability of the
donor’s tissue until blood tests and cuiture results, and in some cases, autopsy results,
are available, which could take several weeks. During this waiting time, the bank
keeps the tissue in quarantine.

Swgical Recovery

If the donor passes the initial screens, tissue bank or OPO staff will surgically remove
the tissue. Approaches to recovery vary among tissue banks. Some tissue banks
recover tissue only in a hospital operating room under aseptic conditions; other tissue
banks will recover tissue in the morgue or in a funeral home under clean--but not
aseptic--conditions.  If organs are also being donated, tissue recovery would follow the
organ recovery, which takes place in the operating room. The time allowed to pass
between death and recovery also varies among tissue banks. Although there are no
definitive standards, those tissue banks we met with require recovery of tissues within
12 hours of death if the body is not refrigerated, or 24 hours if the body is refrigerated
within 12 hours of death.

The qualifications of staff performing the surgical excision of tissues vary. The AATB
has a certification program for tissue specialists. At some tissue banks the staff are
nurses, physician assistants, or medical residents.  At other tissue banks, however, staff
with little or no medical training learn to do surgical recovery through on-the-job
training.

Once the tissues are surgically removed, the tissue bank reconstructs the donor’s body
to allow for an open casket, should the family desire it. The tissue generally is
wrapped and sent to a processing facility, where it is stored until final results of
screening tests are available.


PROCESSING

Processing comprises three stages: processing, preservation, and labeling. We have
seen estimates that between 30 and 40 organizations process bone, with 4 large
processors dominating the field. Processors may process bone from several different
tissue banks.




                                          A-2

Processing

During this stage, any remaining soft tissue is removed from the whole bone. The
bone is processed into the different sizes, shapes, or products required for eventual
use. Generally, bone recovered under clean (i.e., nonsterile) conditions is subjected to
some type of secondary sterilization, while bone recovered under aseptic conditions is
not.

Several approaches to secondary sterilization are used. Some banks process the bone
using chemical treatment, such as ethylene oxide (ETO); research has linked ETO
with carcinogenic properties, however, and it apparently has fallen from favor.
Nevertheless, it is still used by some banks and the AATB has accreditation       standards
covering its use. Other banks sterilize bone, using either low-dose or high-dose
gamma radiation; while those we spoke with indicate that high-dose radiation assures
that the bone does not carry HIV, others maintain that such treatment reduces the
osteogenic (bone regenerating)     characteristics of the bone. Individual surgeons and
bone processors prefer different methods, out of legitimate disagreements       over which
approach is best for their needs.

Preservation

Several basic approaches exist to preserve processed bone until it is transplanted.

Simple hypothermia is used for short term preservation       (usually less than 10 days).

Deep freezing, at temperatures     of -800 C, is used for longer-term preservation.

Cryopreservation,   deep freezing at a controlled rate of temperature      decrease, also is

used for longer-term preservation.     Tissue may also be freeze-dried (Iyophilized).      This

process involves the removal of virtually all water from the bone. Freeze-dried        tissue

can be maintained at room temperature,       but must be dehydrated prior to use.


Labeling

Once tissue has been processed and preserved, it is packaged for use. Each unit of
tissue receives a label. Typically, the label will contain an identifying number for the
donor, information on how it was processed and treated, and instructions for storage
and use (e.g., thawing or dehydrating).



DISTRIBUTION

Dk~”bution

Tissue processors may distribute bone directly to hospitals, surgeons, and dentists for
their use. In other cases, the processor may return the tissue to the originating OPO
or tissue bank, which then distributes the tissue. In still other situations, a processor
may send the tissue to another tissue bank for distribution.     Often, procurers negotiate
with processors and/or distributors for distribution back to the donor’s area or donor



                                            A-3

hospital--even if the procurer is not the one distributing the bone. During the course
of our inspection, we also heard about “tissue brokers, “ individuals who buy and sell
surplus bone tissue to meet the needs of individual surgeons or hospitals.   We also
heard that some companies distribute tissue procured outside the United States.


Recordkeeping

Tissue banks include a response card with each unit of bone. That card includes the
identifier number.   The tissue banks rely on cards being completed and returned by
the surgeon, hospital, or dentist implanting the bone. Tissue banks informed us that
the response rate on these cards varies widely. We heard figures that ranged from
13 percent at one tissue bank to 90 percent at another.

This record-keeping   system, at least theoretically, would allow the tissue to be traced
back to its donor. We heard examples, however, of cases in which the tissue could not
be traced. For example, a surgeon may have privileges at more than one hospital; if
that hospital lacks the tissue that he or she needs, the surgeon may simply “borrow”
the tissue from the other hospital, with no notice in the medical record. In a recent
incident reported by the AATB, the presence of Hepatitis C was discovered in tissue,
but “tracking of the remaining grafts was complicated by incomplete hospital records
and, in one case, by the repackaging of a single graft for multiple patients.”14




                                         A-4

                             APPENDIX                    B                -


                                 METHODOLOGY

Mail Survgy of Oqan Procurement Oganizahons

In May 1993, we mailed a sumey to directors of each of the nation’s Medicare-

certified OPOS to assess their involvement in tissue banking. This survey included

questions about the numbers of organs and tissues procured in 1992, OPO

arrangements    for tissue recovery, effective practices for tissue recovery, and

vulnerabilities associated with tissue banking. We received responses from 63 OPOS.

We decided to exclude the OPO of Puerto Rico from the study universe because of its

low level of organ procurement      activity (two donors in 1992). This left us with

responses from 62 OPOS, out of a universe of 65--a response rate of 95 percent.



Telephone Survey of Sample of OPOS

Following the mail survey, we conducted more extensive telephone interviews with
staff from 15 OPOS. We selected these OPOS based on the results of the mail sumey.
We stratified the OPOS according to whether they recover tissue themselves or refer
donors to a tissue bank. We selected OPOS from each strata in proportion to the size
of the strata relative to the total number of OPOS responding to the survey. In
deciding which OPOS in each strata to interview, we also gave attention to geographic
distribution and to sponsorship (i.e., whether the OPO was hospital-based   or
independent).    In addition to the 15 telephone interviews, we gathered similar
information during a meeting with staff from one additional OPO.



Site Vik”ts to OPOS

We conducted   visits to four OPOs:

       Regional Organ Procurement    Agency     of Southern California,   Los Angeles,   CA,

       OPO of the University of Wisconsin,     Madison, WI;

       LifeNet Transplant Services, Virginia   Beach, VA; and

       Tennessee Donor Services, Nashville,    TN.


During these visits, we interviewed staff of the OPO, local tissue banks, and local
hospitals.   Our visits also included a review of forms and procedures the OPOS utilize
in their tissue-banking   activities.




                                         B-1

Interviews with Federal OJiciak and National Associations                 .,

We interviewed staff from PHS and HCFA who deal with organ transplantation         to
obtain information on federal policies addressing the OPO role in tissue recovery.
Our PHS interviews included officials from the Division on Transplantation    and the
Food and Drug Administration.    We also interviewed staff from UNOS, which holds
the Federal contract for the Organ Procurement    and Transplantation   Network.

We interviewed staff from national associations, including the Association of Organ
Procurement     Organizations, and AATB. During the August 1993 AATB annual
scientific meeting we convened a focus group of staff from five tissue banks to obtain
their views on issues related to OPO involvement in tissue banking.

RevI”ewof Literature and Le@lation

Our literature review included an examination of Federal reports on tissue banking, in

particular “Tissue and Organ Transplantation    Assessment Report,” (PHS WorkGroup

on Organ and Tissue Transplantation,    July 18, 1991). We examined legislation

introduced in the U.S. Senate in 1992 (S. 2908) by Senator Paul Simon, and 1993

legislation introduced by Congressman Ron Wyden (H.R. 3547) and Senator Simon (S.

1702). We reviewed testimony presented at hearings before the Senate Committee on

Labor and Human Resources, September 29, 1992, and the House Committee on

Small Business, Subcommittee    on Regulation, Business Opportunities  and Technology,

October 15, 1993.


Our study also included   a review of medical and scientific literature        on tissue banking.





                                           B-2

                                      APPENDIX                             C                  -




                             COMMENTS ON THE DRAFI’ REPORT




AGENCY/ORGANIZATION                                                                                                  PAGE



Public Health Service . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..         C-2



Health Care Financing Administration                  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . c-4



Assistant Secretaxy for Planning and Evaluation                     . . . . . . . . . . . . . . . . . . . . . . . . . c-7



United Network for Organ Sharing..                  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . c-9



American Association of Tissue Banks                  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..    C-11



Association of Organ Procurement               Organizations         . . . . . . . . . . . . . . . . . . . . . . . C-12





                                                       c-1
      * ,L-,       ~
.+’                 %                                                                              ~blic   Health SefVI@
                         DEPART~NT       OF HEALTH & HUMAN SERVICES
               /
                   L
‘+
 %+V~
   %!(                                                                                             Memorandum

               Date
                         ./@ll 201994

               From      Assistant       Secreta~       for   Health

                                                                                         “organ   Procurement
               Subject   Office     of   Inspector      General     Draft      Report
                                                                                  OEI-01-91-00250
                         Organizations         and   Tissue     Recoveg~

               To        Inspector       General,     OS

                                                                                                              on the
                         Attached      are   the    Public     Health    Senice     (PHS) comments

                         subject     draft     report.        Though   we agree    with     the  recommendation

                         directed      to PHS, we note           that  to undertake.tpe         StePS
                                                                         requ~re    additional
     programmatic

                         encouraged        in the      report    would
                         resources.


                                                       @LpzxzL
                                                        Philip     R.   Lee,      M.D.

                         Attachment




                                                                            c-2
  PUBLIC HEALTH SERVICE (PHS) COMMENTSON THE OFFICE OF INSPECTOR
  GENERAL (OIG) DWWT REPORT “ORGAN PROCUREMENT ORGANIZATIONS AND
                        TISSUE    RECOVERY, ” OEI-01-91-00250


OIG Recommendation

The PHS should          provide      some general    oversight        and guidance         for

organ      procurement       organizations       (OPO) regarding         their

arrangements         with    tissue      banks and their     tissue      recovery

activity.


PHS Comment


We concur     with this    recommendation,       but note that        it cannot      be
implemented      as OIG envis~ons       ana encourages     without        additional
staffing    resources    or funds.       As additional      resources        become
available,     the Health     Resources    and Senices        Ad.MlnistratlOn’S
Division    of Organ Transplantation          would foresee        taking      the
following     specific   actions     in response     to this     recommendation:

      I o	   Collect     information    regarding   the        arrangements         that    OPOS
             have made for tissue         recovery  and        donor    referral.
             Statistical       data  on the performance           indicators        suggested
             by OIG would be collected.

       o	    Disseminate       information       about  effective arrangements
             between OPOS and tissue banks in order to facilitate the
             efforts of other OPOS i.n this             area. A part of this
             activity      could     be the development       of protocols  for
             coordinating        tissue    recovery    between   OPOS and independent
             tissue     banks.

       o	    Seine as a liaison    between    OPOS and tissue        banks and
             monitor   points  of conflict    between    these    two groups.
             This would include    the development       of performance
             standards    for OPOS concerning     tissue    recovery     activities.

Activities      envisioned         under     the first    two bullets      could be
performed      under     contract.         The third    activity,     which requires
program    liaison       between     OPOS and tissue         banks,    can only be
performed      using     Federal      staff.       However,    as noted    above, staffing
resources      and contract         funds      are not currently      available   to
perfmm     these     activities.

                .




                                                      c-3
       . ,,..?..,
-.+’
                    )
                         DEPART.ll ENT OF HEALTH           ~UNIA& SERI”lCES
        Jig
                                                       &                                           Health Care F]nanclng Admirrlstratlon


-
“*
 ‘+~-,m                                                                                            The Admlnlstrator
   >
                                                                                                   Washington,   D.C.   20201
                                                                                                    .,




                        DATE           MAR 21994
                                                                     @u~
                        FROM          Bruce C. Vlad~
                                      Administrator’     ‘~ *
                                                        %
                        SUBJECT       Office of inspector General (OIG) Draft Report: Organ Procurement
                                      Organizations and Tissue Recovery (OEI-01-91-00250)

                        l-o	          June ~.~~~s jWe\\Tn
                                      lnspecIor Generai

                        We re~tiewed the above Subiect draft OIG report which examines the role of organ
                        procurement  organizations ~OPOs) in procur;ng tissues for transplantation.

                        The study’s findings, taken as a whole, raise legitimate concerns about the efficacy of
                        OPOS and tissue bank relationships    and OK)S’    performance  in assisting in the
                        recovery of tissues. C1early, OPOS can play a key role in supporting and encouraging
                        the recovery of tissues; however, we disagree with OIG’S recommendation        that the
                        Health Care Financing Administration     take a more active role in the monitoring of
                        OPOS’ involvement with tissue recovety.     We have provided our detailed comments
                        on the report’s recommendations       for your consideration   in the attached.

                        Thank you for the opportunity to review and comment on this draft report. Please
                        advise US if you would like to discuss our comments at your earliest convenience.

                        Attachment




                                                                     C-4

              Health Care Financing Administration’s        (HCFA) Comments
                  on Oifice of Inspector General (OIG) Draft Repom” -
            “Organ Procurement   Organizations   (OPOS) and Tissue Recovery”
                                     0EI-01-91-O0250


Recommendation

HCFA    should    inciude   an assessment   of OPOS’ performance     in tissue recove~    as part
of the OPO recertification      process.

ResDonse

The study’s findings, taken as a whole, raise Legitimate concerns about the efficacy of
OPOS and tissue bank relationships and Ol?C)s’ performance in assisting in the
recovery of tissues. However, we do not concur With the recommendation for two
reasons. Firs~ performance indicators must be published in regulations before we
can incorporate them into the OPOS’ survey and certification requirements.   Neither
current regulations nor proposed regulations (BPD-646-FC, Conditions of coverage
for OPOS) include any performance indicators for tissue recovery. Secondly, we do
not believe the three performance indicators used in the report are adequate for
HCFA to use in evaluating OPOS’ performance           and, potentially,   denying certification.
Our specific concerns are as follows:

       m	        The first indicator (Organ Donors Referred to Tissue Banks) does not
                 account for the inherent variability in referral methods. No definition
                 of “referral” k provided and we suspect the term may be applied
                 differently.

       �	        The second indicator (Donors Providing Organ and Tissue) is used by
                 OIG to capture the “emphasis that an OPO gives to organ donors as a
                 source of tissue.” However, the report also notes that “fewer than half
                 of all organ donors also donate tissue” and suggests a number of
                 reasons for this phenomenon    which have no bearing on OPO
                 “emphasis” or commitment or the nature of OPO-tisstte bank
                 re~ationships. No benchmark for acceptable or exemplary performance
                 is provided for this measure.

       8	        The third study indicator (Ratio of Tissue Donors to Organ Donors) is
                 not the appropriate   measure of tissue recovery as a whole. We beIieve
                 the real issue is the lack of availability of tissue donors throughout the
                 community, rather than the level of tissue recovery by OPOS alone.




                                            c-5
Page 2
                                                                        . .

If the Public Heaith Semite (P13S) agrees to OIG’S recommendation     to begin routine
collection of data regarding OPOS’ involvement with tissue recovery, we wouid
suggest further collaboration between PHS and HCFA to assure the data to be
collected can be used by HCFA to develop performance     indicators. Based upon our
analysis of such data, l-ICF.4 may then determine the appropriateness of developing
valid indicators and ixnpiementing a monitoring process using these indicators. We
see the data collection, analysis, and possible development of performance indicators
as a long-term initiative.

Technical   Comment

The totrd number of OPOS referred to in the report (65) is incorrect.     The correct
number of OPOS is 66 nationwide.




                                      C-6

                                                                                                office   or   tne    Secretarv
                       DEP.% RT,%IENT   OF HEALTH   & HU.’WAN   SERVICES
            #
- .,+=;j~                                                                                       Wastrlngton.        13.C. 20201




                20:
             June Gibbs Brown
                                 Inspector General

                FROM:	           Assistant Secretary for
                                 Planning and Evaluation

                SUBJECT:         OIG Draft Report,         llorgan
                                                          procurement organizations
                                 (OPOS) and Tissue Recovery,” 0EI-01-91-00Z50   ‘-
                                 COMMENTS

                Thank you for the opportunity                   to   review   the   draft   report            in which
                you recommend that:

                o	       the Public Heaith Service provide some general oversight and

                         guidance for OPOS regarding their arrangements with tissue

                         banks; and


                o	       the Health Care Financing Administration                      include an
                         assessment of OPOS1 performance       in tissue                recovery  as                part
                         of the OPO recertification    process.

                The report  bases   its recommendations on the requirement in the
                Public  Health Service Act that OPOS lthavearrangements to
                cooperate with tissue banks for the retrieval, pr0cessin9~
                presemation,     storage, and distribution of tissues as may be
                appropriate to assure that all usable tissues are obtained from

                potential donors” (section 371b).


                While I fully agree with the purpose of your recommendations, I

                must disagree with the specifics of both. Although OPOS are

                required to have cooperative arrangements with tissue banks~ the
                primary charge to OPOS under section 1138 of the Social SecurltY
                Act is to coordinate procurement of solid organs (human kidney,
                liver, heart, lung, pancreas, and any other human organ or tissue

                specified by the Secretary) . To date,  the Secretary    has not
                expanded the statutory list to include tissue.      Thus, requiring
                HCFA to evaluate OPOS’ performance in tissue recovery would
                exceed statutory authority. Also,   additional PHS oversight and
                guidance to OPOS appears infeasible at this time.


                The finding that OPOSI commitment to tissue recovery varies
                widely is not particularly revealing since nearly half of the
                OPOS also recover tissue; they would be expected to devote
                greater efforts to tissue recovery.  In addition, evaluating
                tissue and organ recovery on the same scale is not practical
                because of disparate consent rates of next of kin regarding
                donation of both organs and tissue.



                                                                       C-7

Page 2 - June Gibbs Brown


Again, I appreciate your objective to enhance procurement of both
solid organs and tissues. For some medical conditions, tlSSUeS
may sene to enhance life. However, as the reporx acknowledges,

the critical shortage remains in life-saving organs. Also, some

tissues may be procured autologously, they SnOUld not be compared

with scarce cadaver organs.


In addition, please note that the recently proposed FDA

regulation implements testing requirements to “detect infectious

diseasesil in tissue donors.  “Safety and quality” regulations

have not yet been promulgated.




                      e            ‘can

                         David T. Ellwood





                                 C-8

                                                                                                                         ,1 LAKCI MFAMERSOF
                                                                                                                         904s0 of olafaom

                                                                                                                         ,, ti4wc  8ARKER  we      *   F<< Hc

                                                                                                                         . ,RLCf 80w O[N [S0
                                                                                                                         ;14NA(. LWK R M Wti       +
                                                                                                                          .ICKICRIXIER
                                                     ‘ 1100   BOLLOERS         PARKWAY,        SLITE
                                                                                                   500
                  2EB[CC,A I UAVIS M H A
                                                                                                                         .H[M.+A.$ F MfCERT W U
                                                              F’(’)ST OFFICE       80x    i   3770                        WCS K KIRXL!N u 0
                                                                                                                         .:sA17 K[>RV R v E 5 w (c~C
                                                      ?, CHW)NV,         VIRGINIA        23225-3770                      t<u1 LAGOS Ed D
                                                                                                                         .l\Nv WAICR
                                                                                                                         ;CCAR 1 MILfORO M 0
                                                                                                                         :tif ALf TA W)NRCX     M *
                                                                                                                          OHM M .ifWMANM        W! 0 M P H
                                                                                                                          fFFtR$4JN C PENNINGTON        IR M 0
                                                                                                                         .iER8f RT 6 POLE5KY M O
                                                                                                                         w) R8f R1 P RAmz,     APh 0
                                                                                                                         .ANCV     L RFlN5h10f F4 FII O
                                                                                                                         TiR[SA SHAFER, R .% w S.N cPTC

                                                                                                                         rm    ?wslMN7s
tl[CUTIVt
       01 RK70R                                                                                                          C. .MILVILL[ WILLIAMS, M O.. 198445
 ..f   .   Vl(ilcf                                                                                                       OSCAR 5ALVATltRRA     Ill M 0. IQ85-96
                                                                                                                         ,OHNC Mc(.XJNAi O, M O 19=
                                                                                                                         H KCIIH )OWWQN. M O., ! 988.89
                                                                                                                         NXfRT    I CORIW. M 0,, 1989-3
                                                                                                                         bu.+ESS wOLF, MO. lWO.91
                                                                                                                         z08ERT M[NDEZ. M O 1991+2




                                                                February 3, 1994


                June Gibbs Brown

                Inspector General

                Department of Health & Human Services

                Office of Inspector Generai

                Washington,       D.C.   20201


                           Re:	    Draft Report on “Organ Procurement Organizations and ‘l%sue Recovery” (OEI-
                                   01-91-00250)

               Dear Ms. Brown:

                       Thank you for providing us with the opportunity to comment on the Office of Inspector
               General’s dr@ inspection report entitled, “Organ Procurement       Organizations and lissuc
               Recovery.”

                      As you know, the United Network for Organ Sharing (UNOS) is a Virginia non-profit
              corporationthat operates the National Organ Procurernent.and Transplantation Netwo* (am
              under contract with the federai government and pursuant to the National Organ Transplant Act
              of 1984, as amended (NOTA). Among the duties assigned to the OPTN contractor under NOTA
              are responsibilities for developing and operating a national computer system for matching patients
              in need of organ transplantswith available donor organs, establishing the medicd cfi*          @
              which these donor organs are allocated among all patients who are registered with the national
              matching system and establishing membership criteria for transplant centers and organ
              procurement organizations (OPOS) that participate in the organ transplantation process.

                      The draft report (at pages 1 and 4) states that the OPTN does not provide guidance about
              the arrangements for participation in tissue banking that OPOS are required to have under NOTA.
              Inciuded in the draft report’s recommendations (at page 14) is the following recommendation:




                                                                               .
                     THE     NATIONAL      ORGAN   PROCUREMEI+T-                         XND         TRANSPLANTATION   NEWORK
June Gibbs llrown
Inspector Generai
February 3, 1994
Page 2

       The PHS could use UNOS, the OPTN contractor, to gather this information [i.e.,
       data about OPO involvement with tissue recovery] through the current OPO
       reporting structure.

        The draft report’s statements regarding the involvement of UNOS, as operator of the
OPTN, in guiding OPO tissue retrieval processing, preservation, storage and distribution efforts
is correcL We simply note that UNOS is not presently authorized under NOTA or pursuant to
our contract with the federal government to participate in such activity. While we would ~
pieased to gather the information described in the draft report’s recommendation, there currently
are no funds available for this task under the OPTN contrac~ Also, UNOS has no private
funding available for this task. Therefore,implementation of this ~ommendation WO~d Wfie
additional funding iromtiefederai governmen~

        Again,wc appreciate the opportunity to comment on the Office of Inspector General’s
draft report on “Organ Procurement Organizations and ‘Iissue Recovery.” If you have any
questions regarding our comments, please do not hesita~ to con~t me.




                                           ~P–.        4
                                            Gene A. Pierce
                                            Executive Director




                                             c-lo
                                                                                     BOARD   W   CovfMoas




American Association of Tiiue Banks


           FcbruaIY
                  8,1994





           June Gibbs&own

           InspectorGcJJera~Offiw of theInspecforGeneml

                   ofHeakhandHumanScmica
           Deparunent

                          Avenue,

           330 Independence     SW
           Washington,

                    DC 20201



           Dear
              Mrs.

                 Browm

           lmuk youforaffordingopportunity
                              usthe         torcvkw the
                                                      hm~or G~~~ ~ W            ~U~ed0~8~

           Pmcwment  Organizationsand T&sue      WrJhavereviewedthereportandofferthefollowrng
                                          ReccweTY.
           cammenw
           TheXWPORdewxibes  amsearoheffort    appearsto beboththoroughandwellconstructedfor its intended
                                           that

           purpose. Thethreeperformanceindicatorsyouselectedreliable
                                                           arc               of the strmgth of the
                                                                     indiuttan
           commitmentmadebyOPOS totheoverall
                                          recowtyoftissue
                                                        t30mcadaveric
                                                                   dcmotxYourf.ixxdiags
                                                                                   am
           conaktent            repo!ts
                  withtheaneodotal               that
                                      endcomplaints  membersofAmericanAssociation
                                                                              ofTissue

                           tousinrecent
           Bankshavepresented              Thereport
                                      years.                identitk
                                                   accurately              problem.

                                                                   apersistent


           Aldtou@the wide variancein the contributionof OPOsto tissuemoovosyiS-      kingfeco-        by
           those inthefield ofttansphmtatio~ Itisnotlikely  comcction
                                                         that                 inequitiesocmzr
                                                                      ofcurrant        will       asthe

           resultofvolunt.asy       Rather,
                             efforts.                     wouldrequire

                                            suchcorrections            thetmpodtbn of well desigaed changes
           in currentprocedures. Unfottunataly,neitherHKSAnorHCFAcould undertake  suclIa dauntingtask
           wthout substantialincreasesin resources. Evmmonitoring by UNOS would OIM tidditionalCOSCS.

           We sincerely hope that wides@taddistrlbutkmof your perceptive,
                                                                      well-written
                                                                               report
                                                                                    w~ promptsclfi

           examination bythose  OPOS thathavebeenleast effectiveinsuppcdngtissue

                                                                              donation,


                  ours
           cordially

       \          L
                   A

       &&
        J     ne C. Mowe, Exeoutiva
                                 Director

                 CAN ASSOCIATION OF TISSUEBANKS




EtecudveLJtrector    C Mowe,1350BeverlyRd.,Suite220-A,MCLUOI,
                Jeanne                                     VA 22101, Phone:703-827-9S8L Fax 703-356”21P8
                                                                                                      !



                                                         C-II

E!ma-
AssociatiOn of
                                                                                      Dlima
                                                                                          L Clark.

                                                                                                Indiana


                                                                                      Rcbccaj.Davts,
                                                                                      Prcstdent-uect
                                                                                                         Texas

o rganPmCuranent
Orfzanizations                                                                       Jaddhdmon,tlthds

                                                                                     nwsurer

                                                                                      WCP-I      D. Haid. T-
                                                                                      Immaiia@Pasr-t%st&nt

                                                                                     J.Albln

                                                                                           Yokk
                                                                                      E18qttolrfw?w?or




            April       14,   1994

           June Gibbs Brown

           Inspector General

           Department   of Health and Human Services

           Cohen Bui.ldLng

           330 Independence   Avenue, S.W.

           Room 5250

           Washington, D.C.           20201


           RE:	     ERAFT Inspection Report         “C?rganProcurement organ~zations and

                    Tissue Recovery”

           Dear Mrs. Brown:


           Thank you for the opportunity to respond to the above. I

           understand the purpose is to describe and assees the role of organ

           procurement organizations (OPOs) in procuring tissue for

           transplantation.


           I apologize for my significant           delayed response.


           Executive Summa n?: In your background statement it is stated,

           “While OPOS see organ procurement as their primary function, to
           the extent that statutory expectations for tissue recovery are not
           met, opportunities for donating and using tissues are not met.”
           From the content in this report it assumes this conclusion was
           drawn from the various survey methods used. Loosely interpreted,
           OPOS do not see tissue donation as a priority, given whatever the
           OPO does in collaboration with tissue recovery, processing and
           distribution?   Is that correct?

           How well each OH) performs its role with tissue banks will, in

           fact, vary significantly.  How this is evaluated and concluded is
           problematic because of a wide variety of confounding issues. A
           few examples are:

                    o          an a.bsertcts
   OE bkauddrda.for performance expectations

                               of the OPO and the tissue bank/s

                    o          an absence of tissue bank leadership communication

                               with OPO leadership and visa versa

                    o          inter-relationships for OPOS and tissue       banks
                    o	         inter-relationships       of tissue banks in the same or
                               close service areas

          These examples an not inclusive, but each will create problems in

          OPO and tissue bank relationships.


          “The OPOS’ commitment to tissue recovery varies widely.”  This

          statement is as accurate as the detailed obtained in your survey

          methods. Your survey data reports 3 OPOS refer all organ donors

          f@r tiSSUe recovery and 2 OPOS reported they refer fewer than 20%

          of their organ donors for tissuedonation.





Onc Cambridge

            Coun.8110GacchoM Roado Sti[c101W6[oF2MCh~h.VA              22042 .703-5-3AOP0       .FU703-5-3”05”8
 Page 2

 Mrs. 3rown


 For example the 2 OPOS reporting less than 20%:


          o       Is this before or after the consent process?

          0       Who asked for consent?

          0       What was the consent process like?

 Stiilar, more introspective questions would need to be asked of the same data
 summarized on page ii.

 In the Recommendations section it is reiterated that the statutory
 requirements for oPOs is to “have arrangements to cooperate with tissue banks

 for the retrieval of tissues to assure that all useable tissues are obtained

 from potential donors.”  In addition, having the same expectation of tissue
 banks should assist  in this process anti must be a component of the process.
 One way cotmnunication will not bring about the desired change. This is a two-
 way street.

If the PHS is to provide general oversight and guidance, there must first be
some standards for expectations for OPOS and tissue banks. Those standards
should be developed in a collaborative manner to create buy in. once
standards are developed and implemented then a reasonable system for oversight
would be more effective.

Find -S
     “
       :
            In the analysis beginning on page 8 the report focuses on the per
cent   outcomefor  tissue donors from organ donors.   The report brings to light
important confounding concerns in adequately evaluating the data, ie the

impact of th’e. consent process, the publicity given to organ donation.   Further

aXIalySiS concludes “that OPOS more involved in tissue banking are likely to

put greater effo*    into tissue recovery.”   The report goes on to comment that

this may be the result of a greater financial interest or an organizational

culture that encourages and supports tissue procurement.     While both are

feasible, perhaps the enhanced outcomes in these OPOS has to do with

investment and control over the actions that OPOS have learned over time will

enhance the commitments of the public served and the professionals involved.


~ co
P	                It is not fruitful to not support the general

recommendations.  It is imperative that we track together, keeping our gOalS

focused on the public we each serve.


The PHH should provide some general oversight and guidance for OPOS regardin9
theix arraag-nts   with tissue banks and their tissue recovery activity.

Recoxmlendation #1: The stated perspective tends to be one-eided, focusing
primarily on what OPOS must do to ‘defend” themselves based on perceived
expectations.   In addition, the questions that may be asked to ascertain
useful data are not going to get at the real problems. Pull together the

leadership in organ donation and tissue donation and assist them in developing

standards that hold up expectations of performance for each that result in the

outcomee desired.


Rec~    dation #2:  The effective dissemination of “what works” will  be
useful. The actual  determinants for “what works” is more complex  that
examiningnumbers. Again,there are so many confounding factors to consider.
A similar approach as noted above could be useful in this process.

Recommendation #3: It is unclear how you monitor tensions, evaluate the

reality of these and then proactively problem-solve.


!fheHCFA should include an assessment of OPOS’ performance in tissue recovery

as a part of the OPO recertification process.




                                            C-13

 Page 3
                                                           ,.�
 Mrs. Brown


 It is not unreasonable for OPOS to be held tQ a standard of performance that
 will provide organs and tissues to the public we serve.  It is a known fact
 that OPOS have sought measurements of performance in organ donation since the
 late 1980’s. It is much simpler to know what standards you are being held to
 rather than guessing whether you “measure up.” As a result of this need,
 currently, there is a multidisciplinary OPO Performance Standards Task Force
 in place. This is a collaborative effort between U??OS and AOPO.

 The key to developing performance standards is to involve the parties that

 will be affected.  This creates ownership and a buy in for the outcome/s.

 Again, AOPO appreciates    the opportunity to respond.  AOPO supports the efforts
 of the Inspector General to hold each of us to a high standard, especially in
 our service to the public. This has been and continues to be demonstrated by
 AOPO’S relationship with the Division of Transplantation, under Ms. Braslow8S
 adept leaciership.
   AOPO offers its membership and leadership to assist in the

 process.



 Sincerely,     .





Diana Clark

President





cc:   Inspector General File




                                        C-14

                               APPENDIX                      D               -


                                          ENDNOTES


1. DHHS, PHS WorkGroup on Organ and Tissue Transplantation,           T&sue and OWan
Transplantation: Assessment Report, July 18, 1991; Staff Memorandum    for Senate
Committee on Labor and Human Resources, September 29, 1992. The exact level of
tissue donation and transplantation  activity is unknown. we have seen estimates range
as high as 600,000 tissue grafts annually. The PHS report states that “OPOS and tissue
banks recovered tissues from an estimated 7,500-10,000 donors last year. These
tissues were used in approximately   250,000 to 300,000 (mostly bone) allografts.” The
Senate Staff Memorandum      reports that “more than 10,000 tissue donors annually
supply more than 500,000 pieces of tissue for transplantation.”

2. Other tissues used in transplantation      include human heart valves and arteries,     skin,
bone marrow, and corneas.

3. HHS Office of Inspector      General    (OIG),T}te llkfribu~ixz O%ans for
                                                                 oj_
Transplantation:    Expectations and Practices, (OEI-01-89-00550), March 1991.

There are actually 66 Medicare-certified OPOS, including the OPO of Puerto Rico.
We limited our universe for this study to the 65 OPOS operating in the 50 States and
the District of Columbia.    A further consideration in this decision was the low level of
organ procurement    activity in that OPO, two donors in 1992. (Appendix B describes
our methodology in more detail.)

4. Public Health Service Act, Section 371(b)(2)(I),        42 U.S.C. s273.

5. American Association of Tissue Banks Newsletter, 16 (Ott          1993) 5:10.

6. 58 Fed. Reg. 65,514, Dec. 14, 1993 (to be codified at 21 CFR Parts 16 and 1270).
Representative  Ron Wyden and Senator Paul Simon have introduced legislation in
Congress to regulate tissue banking (H.R. 3547, S. 1702). In addition, New York,
Florida, and California have passed legislation that regulates tissue banking to differing
degrees.

7.	 Bear, Stearns   & Co., Inc., Investment    Research,   “Osteotech,   Inc.,” December   30,
1991.

8. Jeffrey Prottas, “Issues in Tissue Banking,” (unpublished        paper,   Brandeis
University), January 1990.

9. Ibid.



                                              D-1

10. PHS, ''Draft USPHSGuidelines     for Prevention of Transmission ofHIVthrough
Transplantation  of Human Organs and Tissues,’’ March 17, 1993. When finalized,
these guidelines will update recommendations    on organ and tissue transplantation
published in 1988,

11. According to data from the Division of Transplantation  in HRSA, 1,137 hospitals
provided at least one organ donor in 1992, out of more than 5,000 hospitals in the
country. 481 hospitals provided only one donor, and 656 hospitals provided more than
one donor.

12. HCFA Form-576, “Organ Procurement Organization (OPO) Request for
Designation as an OPO under s 1138 of the Social Security Act,” question lV-7.

13. See, for example, Helen W. Leslie and Scott Bottenfield, “Donation, Banking, and
Transplantation of Allograft Tissues,” Nursing Clinics of North America 24 (December
1989): 891-905.

14. E.U. Conrad, D.M, Strong, K.R. Obermeyer, and M.S. Moogk, “Tissue Donor
Testing and Recipient Tracking for Hepatitis C,” AATB Information Alert, 3 (April
1993) 2.




                                         D-2

